OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/PAKISTAN’S
EDUCATION SECTOR REFORM
ASSISTANCE PROGRAM

AUDIT REPORT NO. 5-391-08-004-P 

MARCH 28, 2008 





MANILA, PHILIPPINES

Office of Inspector General


March 28, 2008

MEMORANDUM

TO:       	         USAID/Pakistan Mission Director, Anne Aarnes

FROM: 	             Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:	           Audit of USAID/Pakistan’s Education Sector Reform Assistance Program
                    (Audit Report No. 5-391-08-004-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit
which contains one recommendation. In finalizing the report, we considered your comments to
the draft report and included the comments in appendix II.

The mission agreed with the one recommendation in the report but a management decision will
not be reached until the mission has provided detailed supporting evidence as to how the funds
under the school enhancement program were used. A determination of final action will be made
by the Audit Performance and Compliance Division (M/CFO/APC) upon completion of the
corrective actions resulting from the mission’s analysis.

Thanks to you and your staff for the cooperation and courtesy extended to us during the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
President Diosdado Macapagal Blvd., 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


Did USAID/Pakistan’s Education Sector Reform 

Assistance program achieve intended results and what has
been the impact?

     USAID/Pakistan Did Not Monitor the
     ESRA Program Effectively .......................................................................................... 7 


     USAID/Pakistan Did Not Approve 

     Revisions to the ESRA Program’s 

     Scope and Budget....................................................................................................... 9 


     Other Matters ............................................................................................................ 12 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – Table 1: Research Triangle Institute's Reported 

                        Achievements for the Education Sector Reform
                        Assistance Program ............................................................. 18

SUMMARY OF RESULTS

USAID/Pakistan designed a 5-year Education Sector Reform Assistance (ESRA)
program in support of the Government of Pakistan’s education sector reform action
plan.1 USAID/Pakistan implemented this program through its cooperative agreement
with Research Triangle Institute (RTI). The objective of the ESRA program was to
provide knowledge, training, and infrastructure necessary to help officials and citizens
develop high-quality education programs for girls and boys throughout Pakistan.
Specifically, the program’s initiatives focused on strengthening education sector policy
and planning, comprehensive school improvement programs, teacher and school
administrator training, youth and adult literacy, and public-private partnerships (see
pages 3-4).

This audit could not determine whether USAID/Pakistan’s ESRA program achieved
intended results because the audit team could not rely on the mission’s monitoring of the
ESRA program or on RTI’s reporting of the program’s achievements against the targets.
The mission did not support its approval of RTI’s monitoring and evaluation plans and
work plans and did not adequately oversee the program through site visits and
maintenance of work files. In addition, the mission did not take appropriate followup
actions stemming from program evaluations and did not require RTI to adhere to
reporting requirements critical to monitoring the program performance. Therefore, the
mission could not demonstrate ESRA program’s accomplishments and attainment of
targets. As a result, the audit team could not make an independent assessment of the
overall program results and overall impact (see page 5).

RTI reported to USAID/Pakistan that it exceeded the targets for 10 of the 13
performance targets established for the ESRA program2 (see appendix III, page 18).
However, the mission could not support approval of RTI’s reported targets or the means
by which it monitored progress toward the targets. While the audit could not confirm the
validity of the reported achievements due to the factors presented above, the audit
observed and reviewed a number of reported tasks completed under the ESRA program.
For example, the audit team observed the furniture, computer, books, and other teaching
aids brought into use at two different ESRA-funded resource centers. Also, the audit
reviewed memorandums of understanding supporting the formation of public-private
partnerships. However, such tasks could not be relied on exclusively to formulate a
conclusion because they constituted only several examples within this $83 million
program (see pages 5-6).

The mission could strengthen monitoring and management of its ongoing programs.
First, the mission must improve its monitoring efforts and level of involvement in the
implementation of its ongoing programs. Second, the mission should ensure that its
approval is given for all substantive changes to the program and the corresponding
budget. The audit also identified other matters requiring the mission’s attention (see
page 12). The report contains one recommendation to assist the mission with

1
  The Education Sector Reform Action Plan 2001-2005, dated January 2003, was developed by

the Government of Pakistan's Ministry of Education. 

2
  RTI reported not achieving targets for two performance indicators, and a target was not set for

one of the indicators. 



                                                                                           1
determining if funds were used for their intended purpose (see page 11).
USAID/Pakistan concurred with the recommendation included in this report and plans to
take corrective action. Management comments are included in their entirety in
appendix II.




                                                                                   2
BACKGROUND

In its interim strategic plan for the period covering 2003 to 2006, USAID/Pakistan
reported that the education sector in Pakistan is immense, broken, and resistant to
change. For example, of the approximately 18 million children in Pakistan who were
between the ages of 5 and 9, only 42 percent were in school. The overall literacy rate is
estimated at 54 percent; for females, it is just below 42 percent. Factors accounting for
this state of affairs include the lack of government funding, political and bureaucratic
interference, the lack of adequate learning systems, and the lack of quality teachers.

In August 2002, USAID signed a $100 million Strategic Objective Grant Agreement with
the Government of Pakistan to support the Government of Pakistan’s education sector
reform action plan3. This action plan outlined the vision, strategies, and objectives for
education sector reforms in Pakistan. To support the Government of Pakistan’s action
plan and to broaden access to quality education, USAID/Pakistan designed its 5-year
Education Sector Reform Assistance (ESRA) program. The objective of the ESRA
program was to provide the knowledge, training, and infrastructure necessary to help
officials and citizens develop high-quality education programs for girls and boys
throughout Pakistan.

To implement the ESRA program, USAID/Pakistan awarded a $60 million cooperative
agreement to Research Triangle Institute (RTI) in December 2002. The cooperative
agreement included four components with an expected end date of September 30, 2006.
Subsequent amendments to the agreement increased the funding to $83 million, added
three additional components, and extended the program’s end date to
September 30, 2007.

The seven components of the ESRA program were as follows:

•	 Policy and planning component to strengthen education sector policy and planning.
•	 Professional development component to improve the capacity of teachers and
   education administrators.
•	 Literacy component to improve youth and adult literacy.
•	 Public-private partnership/public-community partnership component to strengthen
   ongoing government initiatives and develop guidelines for cooperation among the
   government, private businesses, and nongovernmental organizations.
•	 School enhancement program component to upgrade the quality of the learning
   environment in as many as 1,200 schools. The school enhancement program could
   include the provision of basic facilities, learning and teaching resources, teachers,
   school renovations, playground equipment, and other improvements as needed.
•	 Procurement support component to provide advisory, administrative, and logistics
   support to the Government of Pakistan’s Ministry of Education for the procurement of
   equipment, materials, and services as requested by the Ministry of Education under

3
  The Education Sector Reform Action Plan 2001-2005, dated January 2003, was developed by
the Government of Pakistan’s Ministry of Education.


                                                                                    3
   the authority of the Pakistan Education Strategic Objective Grant Agreement. The
   ESRA program would help the ministry define requirements and conduct the
   procurement, including award and payment.
•	 Information communication and technology component to use information and
   communication technologies to advance the school improvement process in
   Pakistan.

USAID focused the ESRA program in the Balochistan and Sindh provinces and the
Islamabad Capital Territory. As of September 30, 2007, USAID/Pakistan had obligated
and disbursed about $83 million and $76 million, respectively, for the activities under the
ESRA program.


AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2007 audit plan to answer the following question:

•	 Did USAID/Pakistan’s Education Sector Reform Assistance Program achieve
   intended results and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         4
AUDIT FINDINGS

This audit could not determine whether USAID/Pakistan's Education Sector Reform
Assistance (ESRA) program achieved intended results because the audit team could
not rely on the mission’s monitoring of the ESRA program or on Research Triangle
Institute’s (RTI), the implementing partner’s, reporting of the program’s achievements
against the targets.

The mission did not adequately monitor the ESRA program to assess its progress or
results achieved. For example, the mission did not have supporting documentation for
its approval of RTI’s monitoring and evaluation plans, which should have included the
program results, indicators for measurement of progress, method of data collection, and
targets for each year. Nor did the mission have support for its approval of RTI’s work
plans, which describe the activities to be conducted during the life of the award and
serve as the road map for how the program description would be achieved. The mission
also did not adequately oversee the program through site visits and maintenance of work
files. In addition, the mission did not take appropriate followup actions in response to
program evaluations. Finally, the mission did not require RTI to adhere to reporting
requirements critical to monitoring program performance. As a result, the mission could
not demonstrate ESRA program accomplishments and attainment of targets.

Nevertheless, RTI reported to USAID/Pakistan that it exceeded the targets for 10 of the
13 performance indicators established for the ESRA program4 as shown in the table in
appendix III. However, the mission could not support approval of RTI’s reported targets
or how it monitored progress against the targets. Therefore, the audit could not confirm
the validity of the reported achievements; however, the audit team was able to observe
and review a number of reported tasks completed under the ESRA program. For
example, during site visits to two different ESRA-funded resource centers, the audit
team confirmed that furniture, computers, books, and other teaching aids were brought
into use at the schools. The resource centers contributed to mobilizing and raising the
communities’ interest in sending their children to school.

During the audit site visits, the audit team observed classes conducted in English by
teachers trained in improved teaching techniques and using materials developed
through the ESRA program. According to school officials, the use of these materials
increased the children’s interest and comfort level in learning and speaking English.
Additionally, the Parent-Teacher Association became more active and involved in the
schools as a result of the initiatives (i.e., training) provided by the ESRA program.




4
 RTI reported not achieving targets for two performance indicators, and a target was not set for
one of the indicators.



                                                                                          5
                 OIG photograph of students using computers in the resource center
                 equipped and funded by the ESRA program located in Islamabad,
                                   Pakistan. (September 2007)


The audit team reviewed memorandums of understanding supporting partnerships
formed between the Pakistan Center for Philanthropy5, the district government, and
corporate philanthropists to invest in improving the condition of state-run schools. For
example, Citigroup Foundation adopted three schools in one district and agreed to give
$30,000 to provide furniture, learning material and science lab equipment, and to pay the
salaries of school employees.

The above-noted completed tasks and accomplishments, however, could not be relied
on exclusively for formulating a conclusion on the overall program because they
constituted only a few examples within this $83 million program. Because the audit team
could not rely on the mission’s monitoring of the ESRA program or on RTI’s reporting of
the program’s progress against the targets, the audit team could not make an
independent assessment of the overall program results and overall impact.
Furthermore, the mission could not sufficiently demonstrate its approval of two
substantive revisions made to the ESRA program’s plan and budget. These issues are
discussed below.

The audit also identified other matters requiring USAID/Pakistan’s attention and action.
These issues are discussed in the “Other Matters” section of the report.




5
  Pakistan Center for Philanthropy is a subrecipient that implemented ESRA program’s public-
private partnership component.



                                                                                          6
USAID/Pakistan Did Not Monitor
the ESRA Program Effectively
 Summary: USAID’s Automated Directives System states that cognizant technical
 officers are responsible for ensuring that USAID exercises prudent management of
 assistance awards and for making the achievement of program objectives easier by
 monitoring and evaluating the recipient and its performance during the award.
 USAID/Pakistan did not employ adequate monitoring practices to effectively monitor
 and manage the ESRA program. For example, the mission did not (1) support its
 approval of the monitoring and evaluation plan and work plans, (2) adequately
 oversee the program through site visits and maintenance of work files, (3) take
 appropriate followup actions stemming from program evaluations, or (4) require RTI to
 adhere to critical reporting requirements considered vital to monitoring the program
 performance. Constant turnover in mission personnel and precarious security
 conditions were primarily responsible for the inadequate practices. As a result, the
 mission could not demonstrate ESRA program accomplishments and attainment of
 targets which impacted the audit’s ability to determine whether results were achieved.

As prescribed by USAID’s Automated Directives System 303.2(f), cognizant technical
officers (CTOs) are responsible for ensuring that USAID exercises prudent management
of assistance awards by monitoring and evaluating the recipient and its performance
during the award. The CTOs should carry out these responsibilities by maintaining
contact with the implementer through site visits, ensuring compliance with the terms and
conditions of the award, reviewing and analyzing reports, and verifying timely
performance, including monitoring reporting requirements.

From 2002 to 2007, USAID/Pakistan partnered with RTI to carry out initiatives across the
seven complex ESRA program components. USAID/Pakistan, however, did not employ
adequate monitoring practices to effectively monitor and manage the ESRA program
during the life of the program. Specifically the mission did not (1) support its approval of
the monitoring and evaluation plan and work plans, (2) adequately oversee the program
through site visits and maintenance of work files, (3) take appropriate followup actions
stemming from program evaluations, or (4) require RTI to adhere to critical reporting
requirements considered vital to monitoring the program performance.

Monitoring and Evaluation Plan – The mission could not sufficiently demonstrate its
approval of RTI’s monitoring and evaluation plan. Despite the requirements for such a
plan and approval, only a draft plan was submitted. There was no evidence to support
the mission’s compliance with the agreement. As this plan was to include the planned
results, indicators for measurement of progress, method of data collection, and targets
for each year, it is critical to ensure that both the mission and RTI understood the
planned results and how progress would be measured. Without an approved plan, the
mission lacks critical performance data needed to manage ongoing progress.

Work Plans – The mission’s CTOs did not require RTI to submit annual work plans in
accordance with the agreement. With the exception of the fiscal year 2007 work plan,
the mission did not have sufficient supporting documentation to show whether it had
approved any earlier required annual work plans. The work plans describe the activities
to be conducted during the life of the award at a greater level of detail than the overall
program description and should serve as the road map on how to achieve the program



                                                                                          7
description. Without an approved work plan, the mission has no baseline by which to
determine if the activities taking place were agreed to and how these activities support
the overall program description.

Site Visits – Despite the complexity and size of the ESRA program, the mission was
only able to demonstrate that it had completed five site visits over the life of the program.
The mission’s four different CTOs assigned to this program collectively conducted two
site visits in 2004, two in 2005 and one in 2007. The mission did not have any support
on file to demonstrate that site visits had taken place during the first 2 years of the
program.

Followup on Evaluations – The mission could not sufficiently demonstrate the
corrective actions it had taken in response to two separate evaluations commissioned to
evaluate the activities under the ESRA program.

For example, in March 2006, the mission conducted an education strategy review to
identify the status of the education program and the strengths and weaknesses of the
components with measures on how to strengthen them. The review identified a number
of weaknesses, including the following: (1) program design did not include full
participation of government agencies at the federal, provincial, and district levels, (2)
lack of baseline data which affected the missions understanding of the impact of the
program, (3) ESRA work plans were not developed in close coordination with
government counterparts, nor did the government sign off on the work plans as its own,
affecting integration and ownership by the government, (4) there was a lack of
integration between components caused by the subcontractors implementing different
components and not working together across the program, and (5) the host government
was not involved in or responsible for achieving the targets; therefore the achievement of
project targets was dependent on USAID's funding, which impacted the sustainability of
the program.       Though this review resulted in recommendations for program
improvements, the mission could not demonstrate how or whether it had considered the
recommendations.

Furthermore, RTI appointed an independent audit firm to conduct a limited scope review
of subgrantees. According to the independent audit firm’s report, its review stemmed
from an internal audit that RTI conducted of 12 grantees awarded grants during the first
phase of the program. The firm’s report stated that RTI’s internal audit highlighted a
number of issues relating to system deficiencies, procedural noncompliances,
contravention of the provisions of grant agreements, noncompliance with USAID
regulations, system and control weaknesses, as well as instances of misuse of
resources and the inability to meet project objectives.6 The mission was not aware of
the significant problems identified in the RTI internal audit or the subgrantee reviews
conducted by the independent audit firm; hence, the mission was not in the position to
determine the impact of these issues on the program.

Quarterly Progress Reports - The mission accepted and relied on quarterly progress
reports that did not meet the reporting requirements specified in the agreement.
Specifically, RTI did not include in its quarterly progress reports a comparison of actual

6
  The Office of Inspector General notes that despite repeated requests, RTI did not share the
subject internal audit report with the audit team or the mission. If the mission does not receive
the report in response to its March 2008 request, it will refer the matter to legal counsel.



                                                                                               8
accomplishments to goals established for the period as required by the agreement.

According to the mission, effective monitoring practices were not employed because of
the constant turnover in mission personnel responsible for managing ESRA program
activities, as well as the precarious security conditions in Pakistan, which had an impact
on the physical mobility of the staff.

As a result, the mission did not have firsthand knowledge of either the ESRA program’s
progress or whether results were being achieved as planned. Although this is a serious
weakness, this audit is not making a recommendation because the ESRA program has
ended and the mission has made plans to expand its staff and provide CTO training to
its staff. However, given the importance of monitoring complex programs in precarious
security situations such as Pakistan, this audit strongly suggests that the mission review
the weaknesses noted in this finding to ensure that adequate monitoring practices are
consistently followed by the respective CTOs of all mission programs and to adopt
needed practices to strengthen the overall monitoring of those programs.


USAID/Pakistan Did Not Approve
Revisions to the ESRA Program’s
Scope and Budget
    Summary: USAID/Pakistan’s cooperative agreement required RTI to comply with the
    Code of Federal Regulations and to report and request prior approval for deviations
    from the budget and program plans. USAID/Pakistan could not demonstrate approval
    of two substantive revisions to the ESRA program’s scope and budget. Because of
    the lack of institutional knowledge and adequate documentation, the mission could not
    explain or support the underlying cause for this oversight. Without proper approvals to
    program and budget changes, there is a possibility that the program would not be
    carried out as intended and that funds could be used for unauthorized purposes. In
    addition, the mission would have no recourse if implementing partners did not achieve
    results.

In accordance with section “A.4 Agreement Budget” of the cooperative agreement, RTI
was required to comply with Title 22 Part 226.25 of the Code of Federal Regulations
which requires recipients of foreign assistance funds to report deviations from budget
and program plans and request prior approval for such deviations. It requires prior
approval for nonconstruction awards when there is a change in the scope or the
objective of the project or program.

Despite these requirements, the mission could not sufficiently demonstrate its approval
of two substantive revisions made to the ESRA program’s plan and budget: (1) a change
of scope and reallocation of funds in the school enhancement program component and
(2) the addition of the ESRA Plus7 activity to the program. These revisions are
discussed below.


7
  ESRA Plus was an activity to establish and operate a network of demonstration/laboratory
schools in the Islamabad Capital Territory to enhance ESRA’s school improvement strategy.




                                                                                          9
School Enhancement Program - In March 2004, the mission modified its agreement
with RTI by adding a fifth component: the school enhancement program. The purpose
of this fifth component was to provide infrastructure enhancements, classroom
resources, learning aids, sport kits, playground equipment, and library books to a total of
1,200 selected primary and middle schools in eight districts of Sindh and Balochistan.
USAID/Pakistan modified the budget reallocating funds totaling $8 million from the other
four components for this new component.

According to RTI, the first phase of this component ended in June 2004. RTI reported
progress under this component in its quarterly progress reports ending March and June
2004. RTI also provided records demonstrating that as of June 2004, a total of
$711,000 in funding was used to complete improvements of 201 schools.

According to the RTI quarterly report ending September 2004, RTI restructured the
ESRA program including revising the results framework, monitoring and evaluation plan,
and work plans to meet the program’s new objectives and strategy. This new strategy
introduced community-driven School Improvement Plans, which were to serve as
guidelines for planning and implementing school improvement activities. The mission,
however, did not have a formal modification notice to support whether RTI had vetted
this strategy change with the mission and how this revised strategy was to be funded.

Even though the activities conducted under the school enhancement program ended,
the mission did not modify the agreement to end this component and RTI continued to
record and report costs for it. In June 2005, the mission increased the funding for this
component by an additional $8 million, resulting in total funding of $16 million. As of
September 30, 2006, RTI recorded and billed $14.4 million against the school
enhancement program component. Given that the mission could not support its
approval of RTI’s monitoring and evaluation plans or the work plans, coupled with the
fact that there was no formal approval of the strategy change from the school
enhancement component to the school improvement plan strategy, it is unclear if the
funds charged against the school enhancement program component were used for the
intended purpose.

ESRA Plus – USAID/Pakistan could not provide support to sufficiently demonstrate that
it approved RTI’s programmatic changes with its subcontractor Education Development
Center (EDC) to shift the focus of the subcontracted activities to the expansion of “ESRA
Plus.”

In January 2005, RTI amended its subcontract with EDC to define a scope of work that
would take place under the information communication and technology component. In
addition, the program description in the modification referred to a new activity as “ESRA
Plus.” Under ESRA Plus, EDC was to establish, operate, and evaluate a group of 30 to
40 demonstration/laboratory schools in the Union Council in Islamabad Capital Territory.
These schools were to offer a venue to demonstrate components of the education
project to stakeholders. As RTI’s subcontract with EDC progressed, RTI further directed
EDC to focus its resources to support ESRA Plus and decrease the work for which it had
initially subcontracted. According to RTI’s chief of party, ESRA Plus was implemented
based on a verbal request from USAID/Pakistan to allow for additional educational
services to the Islamabad Capital Territory in Pakistan. The mission had no supporting
documentation to indicate that it approved RTI’s decision to shift the focus of its
subcontract with EDC to focus on ESRA Plus activities.



                                                                                        10
Because the mission lacked both adequate documentation and institutional knowledge
about the revisions to the school enhancement program component and the addition of
the “ESRA Plus” activity, the audit could not determine with certainty the underlying
cause of this oversight.

Without proper approvals to program and budget changes, there is a possibility that the
program was not carried out as intended and that funds were used for unauthorized
purposes.     Furthermore, the mission would have no recourse if its implementing
partners did not achieve planned results. Since the ESRA program has already ended,
this audit is not making a recommendation for the mission to ensure that proper
modifications to the agreement be finalized. However, there is a risk that funds charged
under the school enhancement program component may not have been used for their
intended purposes. Therefore, this audit is making the following recommendation:


       Recommendation No. 1: We recommend that USAID/Pakistan instruct
       Research Triangle Institute to provide detailed supporting evidence of
       how the $16 million programmed for the school enhancement program
       was used to determine if the funds were used as intended.




                                                                                     11
OTHER MATTERS
During the course of the audit, other matters came to the attention of the audit team.
USAID/Pakistan should take necessary action to mitigate risk and prevent future
reoccurrences of these matters. Specifically, USAID/Pakistan should strengthen its
procedures for documenting actions taken on possible cases of conflict of interest.

Lack of Documentation on
Potential Conflict of Interest
The audit identified a potential conflict of interest involving the mission’s CTO
participation on the evaluation committee for the selection of the awardee to the follow-
on award to the ESRA program. Although the CTO stated that proper notification was
given to the agreement officer and it was subsequently determined that no conflict of
interest existed, the mission did not maintain sufficient documentation to support the
basis for the decision.

Although regulations state that the employees need not file a written disqualification
statement unless required to do so by Part 2634 of Title 5 of the Code of Federal
Regulations, the regulations do call for the supervisor to make a determination in writing,
noting that the employee's financial interest in the particular matter or matters is not
deemed likely to affect the integrity of the services that the government may expect from
such employee.

To maintain the integrity of the mission’s acquisition and assistance process and to
ensure that all future potential conflicts of interest are properly adjudicated, we strongly
suggest that the mission require supervisors to document decisions on conflict of interest
issues and maintain these records on file.




                                                                                         12
EVALUATION OF
MANAGEMENT COMMENTS
In its comments to the draft report, the mission agreed with one of the two
recommendations and described the action it planned to take to address the
recommendation.

The mission agreed with Recommendation No. 1. It plans to complete its review of
Research Triangle Institute’s (RTI’s) costs charged to the school enhancement program
component and report the results of its analysis to our office by September 30, 2008. A
management decision will not be reached until the mission has provided detailed
supporting evidence as to how the funds under the school enhancement program were
used. A determination of final action for this recommendation will be made by the Audit
Performance and Compliance Division (M/CFO/APC) upon completion of the corrective
actions resulting from the analysis.

The draft report included a second recommendation for the mission's review and
comments. However, after subsequent review of the issue that gave rise to this
recommendation, the Regional Inspector General/Manila removed this recommendation
from the final report and combined the issue with the finding on monitoring. The events
discussed in the draft report regarding the mission's lack of knowledge of RTI's internal
audit of the Education Sector Reform Assistance program were included as additional
support to demonstrate the mission's lack of effective monitoring. In its response to the
draft report, the mission commented that it intends to formally request RTI's internal
audit report to review and then decide on an appropriate course of action to take. The
mission intends to complete this review by September 30, 2008.

USAID/Pakistan's written comments on the draft report are included in their entirety as
appendix II to this report.




                                                                                  13 

                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards to determine whether
USAID/Pakistan’s Education Sector Reform Assistance (ESRA) program achieved
intended results and what has been the impact.

In December 2002, USAID/Pakistan awarded a $60 million cooperative agreement to
Research Triangle Institute (RTI) to implement the ESRA program, which included four
components with an expected end date of September 30, 2006. However, subsequent
amendments to the agreement increased the funding to $83 million, added three
additional components, and extended the program’s end date to September 30, 2007.

As of September 30, 2007, USAID/Pakistan had obligated and disbursed $83 million and
$76 million, respectively, toward the activities under the ESRA program.

The audit covered the following four of the seven ESRA program components, which
accounted for 83 percent of the agreement’s funded amount:

•   Policy and Planning.
•   Professional Development.
•   School Enhancement Program.
•   Public-private Partnerships.

Additionally, the audit covered the ESRA Plus activity which was implemented under the
information communication and technology component.

As part of the audit, we assessed the mission’s significant internal controls to monitor
ESRA program activities. The assessment included controls related to whether the
mission (1) conducted and documented site visits to evaluate progress and monitor quality,
(2) required and approved an implementation plan, (3) reviewed progress reports submitted
by RTI, (4) required and approved RTI work plans, and (5) compared RTI’s reported
progress to planned progress and the mission’s own evaluations of progress. We also
reviewed the mission’s Federal Managers’ Financial Integrity Act reports for fiscal years
2006 and 2007, as well as, independent program reviews and evaluations for any issues
related to the audit objective.

Audit fieldwork was conducted from August 28 through September 27, 2007, at the
USAID/Pakistan Mission and at the RTI office in Islamabad, Pakistan. The audit team
also conducted fieldwork at the offices of the Government of Pakistan’s Ministry of
Education, and with the following subrecipients: Leadership for Environment and
Development Pakistan, and Pakistan Center for Philanthropy. To directly observe some
of the ongoing activities, the audit team conducted site visits to two schools in the
Islamabad Capital Territory. The audit team also met with the local accounting firm,
Anjum Asim Shahid Rahman, Chartered Accountants, member of Grant Thornton
International.



                                                                                   14 

                                                                                Appendix I



Because of the lack of approved work plans, monitoring and evaluation plans,
Performance Management Plans, cognizant technical officer work files, site visits, and
overall lack of support to demonstrate substantial involvement on part of the mission in
managing its award with RTI, the audit could not confirm the reported results presented
in the table in appendix III of the audit report. Consequently the audit objective could not
be answered. In addition, RTI did not provide an internal audit report regarding the
program, despite repeated requests by RIG/Manila and the mission.


Methodology
To answer the audit objective, the audit team interviewed officials and staff from
USAID/Pakistan, the Government of Pakistan’s Ministry of Education, RTI, and several
of RTI’s partners (such as Leadership for Environment and Development Pakistan,
Pakistan Center for Philanthropy, and Education Development Center). In addition, the
audit team reviewed and analyzed available relevant documents such as the cooperative
agreement and its modifications, subawards, annual work plans, performance monitoring
reports, quarterly progress reports, financial reports, field visit reports, and other
supporting documentation.

The audit approach also included selecting performance indicators and verifying the
reported progress to supporting source documents. Due to the lack of adequate source
documentation for both the mission and RTI, the audit team’s ability to conduct
appropriate verification tests was limited. The mission lacked adequate source
documentation because it did not properly maintain its work files.

Because of security restrictions, the audit team could visit project sites only in the
Islamabad Capital Territory, Pakistan. During the visits to the schools, the audit team (1)
observed classes being instructed with the teaching aids provided by the ESRA
program, (2) interviewed teachers, administrators, and Parent-Teacher Association
members, and (3) visited resource centers that were equipped with ESRA program
funds.




                                                                                         15
                                                                           APPENDIX II 





MANAGEMENT COMMENTS



MEMORANDUM

Date: 	        February 26, 2008

To: 	          Catherine M. Trujillo
               RIG/Manila

From:	         Anne Aarnes
               Mission Director /s/

Subject:       	Management Comments, Audit of USAID/Pakistan’s
               Education Sector Reform Assistance Program; Draft Audit
               Report No. 5-391-08-00X-P

Reference: 	   Catherine M. Trujillo’s memo dated January 09, 2008

In response to the referenced memorandum on the above subject, please find below the
management comments on the two recommendations:

Recommendation No 1: We recommend that USAID/Pakistan instruct Research
Triangle Institute to provide detailed supporting evidence of how the $16 million
programmed for the School Enhancement Program was used to determine if the
funds were used as intended.

Management Comments: The Mission Management agrees with this recommendation.
The Mission will request Research Triangle Institute (RTI) to provide detailed supporting
evidence of how the $16 million programmed for the School Enhancement Program was
used. Once the Mission has received this evidence and completed its review, we will
report the results of the Mission’s analysis to RIG/Manila. The Mission is establishing a
target date for the completion of this analysis by September 30, 2008.

Recommendation No 2: We recommend that USAID/Pakistan obtain an agency-
contracted audit of the Mission’s cooperative agreement with Research Triangle
Institute for the implementation of the Education Sector Reform Assistance
program to ensure that applicable terms of the agreement were met.



                                                                                   16 

                                                                               APPENDIX II 



Management Comments: The Mission Management disagrees with this
recommendation. As a follow-up to our initial request made to RTI on September 20,
2007, the Mission will submit an additional formal request to RTI by March 12, 2008
asking for the internal audit report. Upon receipt of the report, the Mission will analyze it
and make a management decision by September 30, 2008. In the event of non-receipt of
the report, the matter will be referred to legal counsel.

Other Matters

During project administration, a question arose as to whether a particular cognizant
technical officer had a conflict of interest and should have been allowed to participate in
the program’s technical evaluation committee. The RIG was informed that the Agreement
Officer had sought legal counsel when the issue arose and it was determined that the
ethics general principles and standards for conduct had not been contravened in this
instance. The RIG report comments on the lack of sufficient documentation of that
determination. The Mission will formally document its findings and determination in the
files.




                                                                                          17
                                                                                                 Appendix III


     Table 1: Research Triangle Institute's Reported Achievements for the Education
                          Sector Reform Assistance Program

                                                  (Unaudited data)

                     Performance Indicators                                     Target Reported as
                                                                                        Achieved
    1.    Number of USAID-sponsored policies developed at the national,            3                8
          provincial or districts levels

    2.    Annual percentage increase in student enrollment in target              10%              11%
          schools in target districts

    3.    Number of schools regularly developing and implementing                4,903            5,474
          school improvement plans in target districts

    4.    Number of Districts Improvement Plans developed                         26                29

    5.    Number of teachers and education administrators trained                34,000           45,679

    6.    Percentage of teachers meeting               improved   performance     60%      Study in 2006:
          standards (by year and province)                                                  Sindh:67%
                                                                                            Balochistan:45%
                                                                                           Study in 2007:
                                                                                            Sindh: 50%
                                                                                            Balochistan:87%
    7.    Improved student performance (by year, province and skill area)         10%      Study in 2006:
                                                                                            Sindh: 16%
                                                                                            Balochistan: 10%
                                                                                           Study in 2007:
                                                                                           Sindh:
                                                                                            Mathematics:21%
                                                                                             Urdu: 32%
                                                                                           Balochistan:
                                                                                             Mathematics: 8%
                                                                                             Urdu: 18%
    8.    Percentage of USAID-sponsored literacy program graduates that           65%              60%
          have retained basic literacy skills following program completion

    9.    Number of people completing USAID sponsored literacy                   75,882          104,336
          programs

    10. Amount of private sector investment in schooling                        $66,957         $918,756
                          8
    11. Number of SMC/PTAs functioning in target districts                       7,654            7,596

    12. Number of agreements formalized between private sector                    24                25
        entities and public education sector
    13. Number of assisted infrastructure facilities brought into use             (1)             10,823


         (1) No target was set for this indicator. 


         Note: RTI reported exceeding targets for indicators nos. 1-7, 9-10, and 12. RTI reported not exceeding

         targets for nos. 8 and 11.

8
    School Management Committee or Parent Teacher Associations


                                                                                                          18
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
